CERTIFICATE OF WORD COUNT
NO. TBD
Philippe Buhannic,
Petitioner(s),
v.
NY Appellate Division, First Judicial Department,
Respondent(s).

1.1 am a pro se party who is Petitioner in this matter.
2. As required by Supreme Court Rule 33.1(h), I certify that the Philippe Buhannic Petition
for Extraordinary Writ of Mandamus to the New York Appellate Division, First Judicial
Department contains 6016 words, including the parts of the brief that are required or exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

\

Philippe Buhannic
Petitioner Pro Se
65 Central Park West, Unit 17 A
New York, NY 10023
(917) 716-3542
December 24, 2019

SCP Tracking: Buhannic-65 Central Park West, Unit 17 A-Cover White

